Supreme Court of the United States
Certificate of Service
Re:

State of Wisconsin v. Mitchell L. Christen
Case No.

I hereby certify that on Wednesday, September 29, 2021,
the Petition for Writ of Certiorari and Motion For Leave to
Proceed In Forma Pauperis was mailed by the United States
Postal Service to the Attorney for the plaintiff-respondent
Nicholas DeSantis
Wisconsin Department of Justice
P.O. Box 7857
Madison WI 53707

Dated: Wednesday, September 29, 2021
Respectfully submitted,

Steven Roy
Counsel of Record
1310 O'Keeffe Ave. #315
Sun Prairie, WI 53590
608.571.4732
Steven@StevenRoyLaw.com

